HHS/OIG, Audit -"Review of Deaconess Hospital Outpatient Cardiac Rehabilitation Services,"(A-06-03-00039)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Deaconess Hospital Outpatient Cardiac Rehabilitation Services," (A-06-03-00039)
August 26, 2003
Complete Text of Report is available in PDF format
(543 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly
reimbursed Deaconess Hospital (hospital) for outpatient cardiac rehabilitation services.  We determined that the
hospital met the Medicare cardiac rehabilitation coverage requirements for direct physician supervision.  However,
our claims review of 19 beneficiaries who received outpatient cardiac rehabilitation
services during CY 2001, we showed that the hospital claimed and received Medicare reimbursement for five beneficiaries’
services, amounting to $462, which were not supported by medical record documentation or which were otherwise unallowable.  We
attributed these errors to weaknesses in the hospital's internal controls and oversight procedures. We recommended a
financial adjustment for $462 and that the hospital implement controls related to the billing and documentation of outpatient
cardiac rehabilitation services.